March 29, 2001
Audit Report No. 01-014


Semiannual Report of FDIC Board
Members’ Travel Voucher Reviews –
September 2000 to February 2001
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                              Office of Inspector General




   DATE:                          March 29, 2001

   MEMORANDUM TO:                 Board of Directors
                                  Audit Committee



   FROM:                          Gaston L. Gianni, Jr.
                                  Inspector General

   SUBJECT:                       Semiannual Report of FDIC Board Members'
                                  Travel Voucher Reviews – September 2000 to February 2001
                                  (Audit Report No. 01-014)


   INTRODUCTION

   The OIG reviews FDIC board members' travel vouchers weekly and reports results monthly. This
   report summarizes the results of the OIG's travel voucher reviews for the 6 months ending
   February 28, 2001. The reviews are part of a continuing program initiated at the request of the
   Executive Office. The purpose of the program is to ensure that travel expenses incurred by the
   board members while on official travel are not paid by organizations with contractual agreements
   with the FDIC, trade associations, and persons or organizations that might be affected by FDIC
   decisions. The OIG also reviews travel vouchers for compliance with the FDIC's General Travel
   Regulations.

   OBJECTIVE, SCOPE, AND METHODOLOGY

   This report covers the review of 10 travel vouchers submitted by and paid to the board members
   during the period September 1, 2000 through February 28, 2001. During this period, Chairman
   Tanoue submitted six travel vouchers, and former Vice Chairman Hove submitted four travel
   vouchers to the FDIC's Division of Finance for payment. No vouchers were submitted by Director
   Reich, the Director of the Office of Thrift Supervision, or the Comptroller of the Currency during
   this time frame.

   Our objective was to determine if the board members' travel was in compliance with ethics
   standards contained in FDIC Circular 2410.4 Subpart B; 5 CFR Part 2635 Subpart B; and the
   FDIC's General Travel Regulations. The circular and CFR criteria prohibit acceptance of gifts,
   entertainment, favors, loans, and travel expenses from: (1) a person or organization seeking official
   action by the FDIC, (2) a person or organization doing business or seeking to do business with the
   FDIC, (3) a person or business conducting activities regulated by the FDIC, or (4) a person or
organization with interests that may be substantially affected by the performance or
nonperformance of the employee's official duties.

The OIG identifies the board members' vouchers to be reviewed from payment information
contained in the Electronic Travel Voucher Payment System and supplied by the Division of
Finance's (DOF) Travel Management Section. The OIG selects, for review purposes, only those
vouchers which had claimed expenses paid during the review period. We conducted the audit from
October 2000 through March 2001 in accordance with generally accepted government auditing
standards.

RESULTS OF AUDIT

We concluded that the travel voucher expenses claimed by and paid to Chairman Tanoue and
former Vice Chairman Hove for the 6-month period ending February 28, 2001, were in compliance
with the ethics standards governing the acceptance of gifts, entertainment, favors, loans, and travel
expenses as contained in the above named criteria and the FDIC’s General Travel Regulations.

CORPORATION COMMENTS AND OIG EVALUATION

We received no comments for OIG evaluation since no recommendations were made requiring
action to be taken.




                                                  2
